Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 BENEFICIARY PERSPECTIVES                          OF

     MEDICARE RISK HMOS


                      Summary    Report




                  + SE
                     RVICF$

             \+ F-’
                           %7
            +’
           *
         ~.-
        .2
        z

        %

                                  MARCH     1995
          % -g

           ‘+
             %j~o2
             OEI 06-91-00736
           Beneficiary     Perspectives       of Medicare Risk HMOS
                                    Summary    Report




PURPOSE

This report describes beneficiaries’ perspectives of the Medicare risk HMO experience.
For a more detailed discussion, S= the companion technical report entitled “Beneficiary
Perspectives of Medicare Risk HMOS, ” OEI 06-91-00730.

BACKGROUND        AND METHODOLOGY

lMedicare beneficiaries may join a risk health maintenance organization (HMO) through
the Medicare program. Under a risk contract, Medicare pays the HMO a predetermined
monthly amount (capitated rate) per enrolled beneficiary. In return, excepting hospice
care, the HMO must provide all Medicare covered services that are medically necessary.
Once enrolled, beneficiaries are usually required to use HMO physicians and hospitals
(lock-in) and to obtain prior approval from their primary care physicians for other than
primary care.

As of July 1, 1994, HCFA reported 136 risk-based HMO plans served 2,036,279
Medicare enroilees. 1 The Office of Managed Care within the Health Care Financing
Administration (HCFA) has oversight responsibility for Medicare risk contmcts with
HMos.

Using HCFA databases, we selected a stratifkd, random sample of 4,132 enrollees and
disenrollees from 45 Medicare risk HMOS. Since our primary focus is Medicare
beneficiaries’ perceptions of their risk HMO experience, we collected information directly
from beneficiaries.   We did not attempt to validate their :esponses through record review
or HMO contact. (See Appendix A for details of methodology.)

This inspection was conducted in accordance with the Quahy Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.

FININNGS

Generally, beneficiary responses indictie Medicare risk lZWOs provided     axiequale service
access for most benejiciun”es who had joined.

The majority of enrollees and disenrollees reported medical care that maintained or
improved their health, timely appointments for primary and specialty care, good access to
Medicare covered services and to hospital, specialty and emergency care, and sympathetic
personal treatment by their HMOS and HMO doctors. In some instances, however,
enrollees and disenrollees differed markedly in reporting their HMO experiences.    When
this happened, we describe the difference as a point of comparison.
Overall, HMO beneficiaries seemed relatively healthy. Howe ver, disenrollees repoited a
much gretier decline in health stalus dun”ng their HMO stay and were much more likely
to biame their HMO care for their declining health.

Enrollees and disenrollees self-reported similar health problems, but rated their health
status differently. Two-thirds of both groups reported no serious health problems;2 the
majority of both rate their health as good to exceLlent. However, ciisenrollees tended to
rate themselves in poorer health overall than the enrollees Whi) had comparable health
problems. Both groups also self-reported deteriomting health ovfir time, but at
disenrolhnent, 19% fewer disenrollees rated their health as good to excellent compared to
when they fwst joined their HMOS. This is more than double the 9 % rate of decLine from
good to excellent health reported by enrollees when we surveyed them. HCFA data
showed 65% of disenrollees and 77% of enrollees, who answered our survey, were
enrolled in the sampled HMOS more than 12 months. 3

Another important difference between enrollees and disenrollees was how they rated the
effectiveness of the HMO care. Disenrollees (22%) were ten times more likely than
enrollees (2% ) to believe the medical care received through the HMO caused their health
to worsen. Fully half of enrollees said HMO care improved their health compared to only
one-third of disenrollees.


Benejiciury responses indicate HMOS generally adhered to Federal standurds for
enrollment procedures, but screening for health status at applic~”on and a lizck of
beneficiary awareness of appeal rights were apparent problem arem.

Beneficiaries’ recollections and perceptions indicate that HMOS generally informed
beneficiaries about application procedures, lock-in and prior approval for specialty care.
However, their responses also indicate weaknesses in enrollment procedures and in
beneficiary understanding of individual appeal/grievance rights. With the exceptions of
ESRD and the election of hospice care, Federal regulations prohibit HMOS from denying
or discouraging enrollment based on a beneficiary’s health status. HMOS must also
adequately inform beneficiaries about lock-in to the HMO and grievance/appeal
procedures. Forty-three percent of beneficiaries, who could remember, said they were
asked at application about their health problems, excluding kidney failure and hospice
care. Between 2 % and 3 % reported a physical examination was required before they
could join the HMO, an event that should never occur. 4 We specifically asked
beneficiaries about their experiences at application.  However, some HMOS conduct a
health assessment interview shortly after enrollment.   If some of these responses refer to
such health assessments, this may have inflated our data. Also problematic is the fact that
25% didn’t know they have the right to appeal the HIIO’S refusal to provide or pay for
services.




                                             2

Most beneficiaries repotied timely doctor appointments for primary and specialty care,
but some enrollees and disenrollees experienced noteworthy debys; busy telephone lines
caused appointment difficulties for some benefician”es.

Timely appointments includes days elapsed before a scheduled appointment, time spent
waiting in an office to see a doctor and the ease (or difficulty) of the process for
scheduling appointments.

 b      Appointments:    The great majority of beneficiaries reported they got appointments
within 1 to 2 days when they believed they were very sick, but enrollees (94%) were
more likely than disenrollees (85%) to get quick appointments.     Fully 78% of
beneficiaries usually waited 8 days or less for appointments with primary doctors and 63%
usually waited the same for appointments with specialists. A substantial group (16% to
26%) of enrollees and disenrollees said they typically waited from 13 to more than 20
days for scheduled appointments for primary and specialty care. Moreover, the waiting
times for scheduled appointments differed little between the self-reported healthier and
sicker beneficiaries.

b        Office waiting time: Disenrollees (20 ?O) were almost 3 times as likely as
enrollees (7% ) to report waiting 1 hour or more in the office to see their primary HMO
doctors.

b       Telephone access: Busy telephone lines hindered some beneficiaries’ access to
services by affecting their ability to make appointments for care. Disenrollees (34%)
encountered consistently busy telephone lines almost twice as often as enrollees (19%) and
11% of all beneficiaries said they sometimes gave up trying to make appointments.



The greal majority of benejiciaties believed they received the Medicare services they
needed and were personally well-treated; however, disenrollees were more likely to
perceive problems with access to pn”mary and speciu.lty care, to seek out-of-plan care
and to report their HMOS’ or pn”mary docto~’ unsympdtetic       behan”ors.

A large majority of enrollees and disenrollees believed their primary HMO doctors and
HMOS provided the necessary care. They consistently reported good access to Medicare
covered services and to hospital, specialty and emergency care.

 b       Access to primary and specialty care: Disenrolkxx reported more ‘access
problems in three categories. First, disenrollees said their primary HMO doctors failed to
provide Medicare covered services nearly 5 times as often as enrollees. Second,
disenrollees were much more likely than enrollees to report their doctors’ failure to give
the necessary referrals to specialists. In fact, disenrollees with self-reported serious
illnesses were more than twice as likely to report this denial of referrals than disenrollees
with none. Third, disenrollees more often reported HMOS’ refusals to pay for emergency
care compared to enrollees. 5




                                              3

Only 4% of all beneficiaries reported being told by medical or office staffs that a needed
medical ser,’ice was not covered by the HMO. The most frequently mentioned services
were chiropractors (37 %), laboratory tests and x-rays (14 %), and medical equipment for
home use (11 %) -- all of which are Medicare covered services with some restrictions.
Although based on a few responses, this may indicate a problem with HMO service
provision and/or beneficiary understanding of available services.

k       Out-of-plan care: Excluding dental, routine eye, and emergent/urgent care, 7%
of all beneficiaries had sought out-of-plan care for Medicare covered services without
prior approval from their primary HMO doctors or the HMO. Disenrollees (22%) went
out-of-pkm 3 times as often as enrollees (7%). Reasons most often given for seeking out­
of-pkm care were perceived access problems, such as needing the unapproved care, not
getting services quickly enough, and not being helped by the primary HMO doctor.
Another reason, not knowing they would have to pay for out-of-plan care, illustrates
beneficiary misunderstanding of lock-in.

k        Unsympathetic behavior by doctors or HMOS: Unsympathetic behavior of
primary HMO doctors, their staffs and HMO office staff can directly or subtly restrict
beneficimies’ access to medical services. We found only slight evidence (less than 1%) of
beneficiaries being told their medical needs could not be accommodated.    Overall, about
11% of beneficiaries perceived more subtle kinds of personal treatment problems that can
indirectly restrict access. 6 Disenrollees (39%) were more than 3 times as likely as
enrollees (12 %) to believe their primary HMO doctors did not take their health complaints
seriously. However, over one-third of these disemollees and enrollees said they
encountered this attitude most to all of the time. Disenrollees were also more likely than
enrollees to believe that holding down the cost of care was more important to their
primary HMO doctors (28 % vs. 10%) or their HMOS (35 % vs. 11%) than giving the best
medical care possible.


Disabled/ESRD disenrollees most often repotied access problems in several cwcti        areas
of their HMO care; many disa.bled/ESRD enrollees wanted to leave.

Disenrollees who are disabled or who have ESRD are a small (an estimated 2,300
beneficiaries), highly critical group. 7 They were twice as likely as aged disenrollees and
41 times as likely as disabled/ESRD enrollees to say that medical care received through
the HMO caused their health to worsen. In addition, they were the most likely to report
that their primary HMO doctors restricted access to needed Medicare covered services,
didn’t refer them to specialists when necessary, and didn’t take their health complaints
seriously. They were also the most likely to seek out-of-plan care while still enroUed in
the HMO and to believe that holding down the cost of care was more important to
primary HMO doctors and the HMOS than providing the best medical care possible. We
also found discontent among disabled/ESRD enrollees with 66% saying they wanted to
leave their HMOS.




                                              4

Almost one-~hird of disenrollees Iejl solely for administr~”ve reasons; the remaz”nder
voiced more cn”ticism of their HMO expen”ence; 16?70of enrollees etiher planned to leave
their HMOS, m wanted to leave but feh they could not.

Responses from the 29% of disenrollees who left their HMOS for administrative reasons
tended to dilute the criticism of other disenrollees. Administrative reasons refer to
business or procedural actions rather than to beneficiary choice. Non-administrative
disenrollees were substantially more negative than administrative disenrollees regarding
their experience with appeal rights, effectiveness of HMO care, waiting time for
appointments, and personal treatment receivd from the primary HMO doctor and the
HMO.
Eighty-four percent of enrollees had no plans to leave their HMOS, but the remaining
16%, an estimated 150,000 beneficiaries, either planned to leave or wanted to leave but
felt they could not. Two percent planned to move out of the HMO’s service area, 4%
planned to leave for non-administrative reasons, and the final 10 % wanted to leave but felt
they could not, primarily because of the relative affordability of HMO care.



The leading disenrollment reasons based on personal preferences were discomfort with
the restricted care choices and high beneficiary expenses, while top reasons related to
service access are difficulties with h“mely appointments and with obtaining needed
primary and specialty care.

Beneficiaries’ personal preferences in a health care delivery system and their perceptions
of access to services through the HMOS constituted two non-administrative categories of
reasons for leaving or wanting to leave the HMOS. Within the personal preference
category, enrollees and disenroIl&s most frequently cited discomfort with the HMO
restrictions on providers and services, plus high beneficiary premiums/co-payments,      as
reasons for leaving. Perceived access problems showed some differences between
disenrollees and enrollees as well as some similarities. A telling distinction was 19% of
disenrollees reported they left because of getting sicker as a result of the care received
through the HMO, compared to only 4% of enrollees. Disenrollees were 1.5 to 2 times
as likely as enrollees to choose the reasons of long office waits and lack of fast service
when they believed they very sick. However, four reasons were listed among the top five
by both groups:

       b      waiting too long for scheduled appointments,

       F      not being allowed to see the necessary specialists,

       F      wsiting too long at the office to see the doctor, and

       b      being unable to get services fast enough when they were very sick.





                                             5

Choice oj”primary HMO doctors and high benejicimy expenses were the two most
important reasons for leaving or wanting to leave the HMC%. 3

Five rezsons for leaving an HMO were the most frequently given and were among those
rated most important by both disenrollees and enrollees. Both groups said they:

       b      didn’t like the choice of primary HMO providers:

       b      believed their premiums and/or co-payments were too expensive;

       b      wanted to use the doctors they had before they joined the HMO;

       b      were not alIowed to see the specialists they believed they needed to see; and

       h      were refused, by their primary HMO cioc~ors, services they believed they

              needed.

The choice of primary HMO doctors and high beneficiary expenses were the two most
important overall disenrollment reasons for both groups. Both groups perceived problems
with service access, but disenrollees seemed to feel a greater impact on their health as a
result, i.e., they were getting sicker. Enrollees’ reasons for planning/wanting to leave
were predominantly personal preferences for health care delivery.


RECOMMENDATIONS

As the health care reform debate continues and a means to control health care costs is
sought, the HMO form of managed care has received increased attention. To provide
further information for the ongoing debate and to assist HCFA in its management of
Medicare risk HMOS, we present these recommendations based on our survey results.

As discussed, beneficiary responses indicate Medicare risk HMOS provide adequate
service access for most beneficiaries who have joined. However, our survey results also
indicate some serious problems with enrollment procedures and service access that we
believe require HCFA’S attention. Our intent here, and in subsequent reports based on
the same survey data, is not to prescribe specitlc corrective actions. Instead, we want to
identify for HCFA, based on information from beneficiaries, areas Of the Medicare risk
HMO program apparently needing improvement and to suggest techniques HCFA can use
to further monitor these areas.

Three items need immediate exploration:

�	     Beneficiaries should be better informed about their appeal rights as required
       by Federal standards. Fully 25% of beneficiaries did not know they could appeal
       their HMOS’ refusals to provide or pay for services. We believe knowledge of
       appeal rights is an extremely important issue when viewed in combination with
       lock-in to the HMOS and the fact that 12% of all HMO beneficiaries perceived
       their primary HMO doctors did not take their health complaints seriously.




                                             6

+	     Service access problems reported by disabled/ESRD beneficiaries need to be
       carefully examined, as they are an especially vulnerable group. Moreover, the
       problems cited in their survey responses parallel February, 1994 Congressional
       testimony regarding HMO care of the disabled.9

k      Medicare risk HMOS should be monitored for inappropriate screening of
       beneficiaries’ health status at application.   More than 2 of 5 beneficiaries, who

       could remember, said the y were asked at application about their health problems.

       A recently pubLished study 10 of Medicare risk HMOS found that these plans

       attract healthier-than-average beneficiaries. While the study concludes this

       “appears to be due primarily to self-selection of enrollees, since HMOS must enroll

       an interested Medicare beneficiary, ” our data suggest the possibility of health

       screening and selective enrollment by HIM(3s, as an alternate explanation.


Several other beneficiary-reported issues of access to services through HMOS merit
examination by HCFA in the near future for possible cause and resolution. The access
issues concern:

b	     Routine Appointments -- Some beneficiaries reported having difficulty making
       appointments for services in terms of the days waited for scheduled appointments,
       apparently without regard to their health status. Others said they sometimes gave
       up trying to make appointments because of consistently busy telephone lines.

b	     Health Maintenance -- Some beneficiaries reported being unable to see their
       primary HMO doctors within 1 or 2 days when they felt they were very sick.
       Some also believed their HMO medical care caused their health to worsen.

F	     Refusal of Services -- Some beneficiaries reported they were refused referrals to
       specialists, payments to a doctor or hospital for emergency care, or Medicare
       covered services because the HMO purportedly did not cover them.

Based on our experience with this survey, we suggest consideration of three items as
HCFA conducts field tests of its survey instrument for disenrolling HMO beneficiaries,

F      Allow disenrollees to communicate as many reasons for leaving the HMC) as
       are applicable to their situation. Confiig a beneficiary to only one reason may
       mask underlying problems of which HCFA needs to be aware.

F	     Distinguish bet ween adrninistrative and non-administrative disenrollments.
       Because of the major differences between administrative and non-administrative
       disenrollees, it appears advisable to treat them separately when monitoring
       managed care settings. Also, if disenroll.ment rates are to be a performance
       indicator, HCFA may want to exclude administrative disenrollments or treat them
       sepamtely.




                                             7

b	     Conduct these exit surveys by mail with computer itinerated forms, either
       exclusively or in conjunction with other methods       In this way, as the GHP or
       other data base is updated with disenrolhnent information, HCFA could routinely
       and systematically collect information from all or a portion of disenrollees.


Additional Office of Inspector General Work

Other Inspector General reports, either in progress or planned, are also intended to assist

HCFA in its examination and management of HMO issues. From ‘this survey data we

plan to complete an HMO level report showing the distribution, frequency and

characteristics of HMOS relative to the enrollment and access issues reported by

beneficiaries. We also plan to produce a report that explores tke value and use of

disenrolhnent rates as an HMO performance indicator and that analyzes the most

sigfilcant reasons for beneficiary disenrollments.  Other subjects of future HMO reports

are a determination of how physicians and beneficiaries view their relationship in an HMO

setting and how well Medicare beneficiaries enrolled in HMOS understand their appeal

rights and have them protected.



AGENCY CONliWEiiTS

HCFA concurred with the report’s recommendations.          The agency reports it is focusing
on improved ways to communicate with beneficiaries, and spectilcally the Medicare HMO
enrollee. The report findings and recommendations may also be part of its efforts to
support action in certain areas of beneficiary access and education. Finally, HCFA will
utilize the report as part of its data collection and information gathering efforts to assess
beneficiary access to managed care services and the extent of beneficiary knowledge on
how to use these services.

The Assistant Secretary for Planning and Evaluation suggested the inclusion of other
research, comparative data, and HCFA monitoring efforts in the report to provide context
for our findings. However, we chose not to largely because such discussions would have
over-extended an already lengthy report. Instead, we cautioned readers about the nature
and limitations of the data presented, and have included the bibliography for those
interested in more detail. All things considered, though, we still believe that the three
problem areas we identi-fkd deserve further examination.




                                              8

                                     ENDNOTES



1.    “Medkare Managed Care Contract Report, ” July 1, 1994, prepared by Office of

      Managed Care, HCFA.


2.    Serious health problems such as, broken bones, cancer, hexrt attack, pneumonia     or

      a stroke.


3.    The average length of enrollment in the sampled HMO,S was 36 months for

      enrollees and 29 months for disenrollees.


4.    An additional concern is that these indicators are based only on responses from

      beneficiaries who did enroll in an HMO. We cannot know, for this study, the

      experience of those who considered HMO membership, but did not enroll.


5.    A complication of payment for emergent y care is that beneficiaries,

      understandably, don’t always differentiate between emergency care and urgent

      care. While HMOS will generally pay for any required emergency care, they will

      only pay for unauthorized urgent care outside the service area.


6.    Some literature indicates this attitude toward the older patient is a problem

      generally and is not necessarily confined to one particular care setting.


7.    Disabled/ESRD disenrollees also seem to be disproportionately represented in their

      stratum. In the entire sample and in the enrollee stratum, the weighted proportion

      of disabled/ESRD beneficiaries is 3 %. Disabled/ESRD disenrollees account for

      8% of their stratum.


8.    The disenrollees (18%) who cited administrative reasons @       are not included in

      the following analysis. Administrative reasons for disenrollrnent were moving out

      of the HMO service area (25 %), their HMOS no longer participating as a Medicare

      risk HMO or in their companies’ retirement plan (6%), or involuntary

      disenrollments such as late premium payments or clerical error (3 %). Disenrollees

      could select more than 1 reason. Enrollees described disenrollment reasons

      because they either planned to leave their HMOS or wanted to leave, but felt they

      could not.


9.    Before the House Select Subcommittee on Education and Civil Rights by a

      representative from the National Council on Independent Living. Medicare and

      Medicaid Guide, No. 789, Commerce Clearing House, February 17, 1994, p. 5)


10.   Brown, Randall S., Dolores Clement, Jerrold Hill, Sheldon Retchin, and Jeanette

      Bergeron, “Do Health Maintenance Organizations Work for Medicare?” Health

      Care Financing Review, Fall, 1993, 15:1:7-23.





                                            9

il.€   I?enchansky, Roy, DBA, and J. William Thomas, PhD, “The Concept of Access:
       Deftition and Relationship to Consumer Satisfaction, ” Medical Care, February
       1981> 12:2:127-140.

       Thomas, J. William, PhD, and Roy Penchansky, DBA, “Relating Satisfaction With
       Access to Utilization of Services, ” Medical Care, June 1984, 22:6:553-568.

12.    ‘The Penchansky and Thomas five dimensions of access co services are:

       a.	   Availability - the relationship of the volume and type of existing services
             (and resources) to the client’s volume and types of need. It refers to the
             adequacy of supply of medical providers, facilities and specialized programs
             and services, such as mental health and emergency care.
       b.	   Accessibility - the relationship between the location of supply and the
             location of clients, taking account of client transportation resources and
             travel time, distance and cost.
       c.	   Accommodation - the relationship between the manner in which the supply
             resources are organized to accept clients (including appointment systems,
             hours of operation, walk-in facilities, telephone services) and the client’s
             ability to accommodate to these factors and the client’s perception of their
             appropriateness.
       d.	   Afloralzbility - The relationship of prices of services and the providers’
             insurance (or deposit requirements) to client’s income, ability to pay and
             existing health insurance. Client perception of worth relative to total cost is
             a concern, as is client knowledge of prices, total cost and possible credit
             arrangements.
       e.	   Acceptability - the relationship of clients’ attitudes about personal and
             practice characteristics of providers to the actual characteristics of existing
             providers, as well as to provider attitudes about acceptable personal
             characteristics of clients. In turn, providers have attitudes about the
             preferred attributes of clients or their financing mechanisms.     Providers
              may be unwilling to serve certain types of clients or, through
              accommodation, make themselves more or less available.




                                           10

                                      APPENDIX A

                      Methodology and Demographic Profile


lhlethodoiogy

This study’s primary focus is the Medicare beneficiaries’ perceptions of a risk HMO
experience. Thus, we collected information directly from beneficiaries but not from HMOS,
their staffs or their medical records. We also did not speciflcal,ly ask beneficiaries about
their satisfaction with the HMOS, as the concept of satisfaction is less objective than, and
sometimes independent of, the issues of membership in a Medicare risk HMO. Since the law
and regulations do not clearly delineate what full access to services through a Medicare risk
HMO means, we adapted a deftition from literature. 11,12 We exp~d~          this deffition
to include the role of HMO gatekeepers, primary physicians or others, in preventing or
facilitating beneficiaries’ receipt of covered services. Operationally, we divided access into:
timeliness of appointments; service restrictions; incidence of out-of-plan care; and behavior
of HMO persomel towards beneficiaries.

Using HCFA databases, we selected a stratified, random sample of 4,132 enrollees and
disenrollees from 45 Medicare risk HMOS. Of the structured surveys mailed tca each
sampled beneficiary, a total of 2,882 surveys (1,705 enrollees and 1,177 disenrollees) were
returned and deemed usable. The weighted sample approximates the distribution of emollees
and disenrollees in the universe (97% vs. 3 %). Because of this imbalance, we initially
analyzed the two groups separately and then compared their responses. Throughout the
report, percentages are based on the number of responses to each question. We also
analyzed sub-populations of enrollees and disenrollees. (See Table on next page for
demographic profde of respondents.)




                                             A-1

                                   Demographic Profile of Respondents
                                            (Weighted Data)
                                                                                 —.             -
                                TOTAL      POPULATION            DISENROLLEES                       1

GENDER
     Female                          60% (666,049)                 53% ( 15,065;/       ““---”-=
     Male                            40% (446 ,205)                47% (13,139)                         40% (433,067)

RACE/ETHNICITY
                                                                                     ---””’-k
     White                           90% (991 ,084)                88% (24,872)
     Non-White                         7% (83 ,684)                 12%    (3,:332)                       7 ‘% (80:;52)
     Unknown                          3% (37,486)                          o                              3%   (37,486)
                                                                            —.
.AVERAGE AGE                            74 Years                      73 Years                              74 Years
                                                                                     .——..
EDUCATION
 < Than High School                  24% (274, 156)                20%     (5,683)                      2594 (268,473)
 High School Diploma                 29% (318,440)                 22% (6,238)                          29% (312,201)
 > Than High School                  43% (474,317)                 49% (13,778)                         42% (460,539)
 No Response                          4% (45,342)                   9%     (2,504)                        4%   (42,838)
                                                                                      ——-
MEDICARE
CATEGORY
     Aged                           97% (1,078,445)                92% (25 ,907)                        97% (1,052,538)
     DisablecUESRD                    3%    (33,809)                 8%    (2,296)                       3%     (31,513)

COMPETITIVE          AREA
     Competitive                     63% (700, 103)                53% (14,878)                         63% (685,225)
     lNoncompetitive                 37% (412,152)                 47% (13,325)                         37% (398,826)

HMO EXPERIENCE
     Prior Experience                14% (154,069)                 21%     (5,997)                       14% (148,072)
     INOExperience                   82% (906,961)                 71% (19,905)                          82% (887,056)
     No Response                       d% (51,226)                   8%    (2,302)                        4%    (48,923)

AVERAGE         LENGTH
OF TIME IN H~MO                         36 Months                    29 Months                             36 Months

SERIOUS HEALTH
CONDITIONS
  2 + ~ondition~                       6% (61,003)                   5’%   (1,254)                        6%    (59,749)
     1 condition                     24% (265,866)                  22%    (6,153)                       24% (259,713)
     None                            60% (669,619)                 58% (16,440)                          60% (653 , 180)
     No Response                     10% (115,767)                  15%    (4,357)                       10% (111,410)




 1
      A competitive area is a county in which 2 or more of glJ Medicare risk HMOS, not just sampled HMOS,
      provide services.   13e~eficiaries were then matched to counties by zip codes of their mailing address.

 2
      Health conditions are seLf-reported, and are for example, broken bones, cancer, heart attack, pneumonia or
      stroke.



                                                         A-2

